Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Justice Programs Grant to Administer the Victims of Crime Assistance Program for the North Carolina Department of Crime Control and Public Safety

Report No. GR-40-03-006


March 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of Victims of Crime Assistance (VOCA) grants 2000-VA-GX-0037 and 2001-VA-GX-0037, awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the North Carolina Department of Crime Control and Public Safety (grantee).
The purpose of these grants was to reimburse subgrantees for expenses related to participation in the VOCA program.  As of August 31, 2002, the grantee was awarded a total of $19,651,000.
We tested accounting records to determine if reimbursement claimed for costs under the grants was allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.
Our audit revealed that the grantee did not:

Provide support for the estimated percentages being used to allocate staff costs to the VOCA assistance grants, and did not perform quarterly comparisons of actual to estimated distributions between funding sources.
Use a formal method for allocating shared state-level administrative direct costs between funding sources, other than personnel costs.
Monitor supporting documentation for costs claimed by state agency subgrantees to ensure that state agency subgrantees were claiming VOCA program costs in accordance with OJP and VOCA assistance grant program guidelines.
Conduct periodic financial monitoring or obtain supporting documentation for claimed costs to ensure the costs were claimed in accordance with VOCA program guidelines for $1,107,988 reimbursed to subgrantees.
Provide support for some allocated personnel costs charged to the 2000 VOCA grant.  The net difference for all staff charged to VOCA between the claimed amount and the supported time totaled $7,584.
Prepare quarterly Financial Status Reports accurately.
Submit Performance Progress reports timely.
Ensure that monitoring reports are on file for all subgrantees listed on the monitoring visit report.

These items are discussed in detail in the Findings and Recommendations section of the report.  We identified $1,115,572 in questioned costs.1   Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

See Appendix II for schedule of dollar-related findings.